CERTIFICATE OF WORD COUNT
NO. TBD
Americare Emergency Medical Service, Inc.,
Petitioner,
v.
State of New Jersey, Department of Health, Office of Emergency Medical Services, James Sweeney,
Scott Phelps, Eric Hicken, Bell Medical Transportation,
Respondents.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the AMERICARE EMERGENCY
MEDICAL SERVICE, INC. PETITION FOR WRIT OF CERTIORARI contains 8550 words, including the parts
of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
May 7, 2021

SCP Tracking: Cleveland-1717 Pennsylvania Avenue-Cover White

